<html>
<title> - ALLIES UNDER ATTACK: THE TERRORIST THREAT TO EUROPE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



                          ALLIES UNDER ATTACK: 
                     THE TERRORIST THREAT TO EUROPE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2017

                               __________

                           Serial No. 115-38

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
26-045 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93f4e3fcd3f0e6e0e7fbf6ffe3bdf0fcfebd">[email&#160;protected]</a>                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia

                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
TED POE, Texas                       BRAD SHERMAN, California
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
JEFF DUNCAN, South Carolina          WILLIAM R. KEATING, Massachusetts
F. JAMES SENSENBRENNER, Jr.,         DAVID N. CICILLINE, Rhode Island
    Wisconsin                        ROBIN L. KELLY, Illinois
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Seamus Hughes, deputy director, Program on Extremism, George 
  Washington University..........................................     7
Mr. Robin Simcox, Margaret Thatcher Fellow, Davis Institute for 
  National Security and Foreign Policy, The Heritage Foundation..    16
R. Kim Cragin, Ph.D., senior research fellow for 
  counterterrorism, Center for Complex Operations, National 
  Defense University.............................................    21
Ms. Georgia Holmer, director, Countering Violent Extremism, 
  United States Institute of Peace...............................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Seamus Hughes: Prepared statement............................     9
Mr. Robin Simcox: Prepared statement.............................    18
R. Kim Cragin, Ph.D.: Prepared statement.........................    23
Ms. Georgia Holmer: Prepared statement...........................    31

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
Written responses from Ms. Georgia Holmer and Mr. Seamus Hughes 
  to questions submitted for the record by the Honorable Dina 
  Titus, a Representative in Congress from the State of Nevada...    56

 
          ALLIES UNDER ATTACK: THE TERRORIST THREAT TO EUROPE

                              ----------                              


                         TUESDAY, JUNE 27, 2017

                     House of Representatives,    

         Subcommittee on Terrorism, Nonproliferation, and Trade

                                  and

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the Subcommittee on Terrorism, Nonproliferation, and Trade) 
presiding.
    Mr. Poe. The subcommittees will come to order. Without 
objection, all members will have 5 days to submit statements, 
questions, and extraneous materials for the record subject to 
the length limitation in the rules. At this time I will make my 
opening statement.
    Over the past 3 months, three deadly terrorist attacks have 
struck the United Kingdom and an additional five other plots 
were thwarted. These were just the latest in a wave of deadly 
terrorist attacks that have swept Europe since 2014. In 3 
years, there have been more than 36 attacks across Western 
Europe killing nearly 400 people including a number of 
Americans. The number of potential plots has skyrocketed, 
posing a serious challenge to European authorities. According 
to British authorities they are investigating as many as 23,000 
suspected and 500 potential plots.
    While security services have to be lucky all of the time to 
protect our freedom, the terrorists just have to get lucky once 
to threaten our sense of safety. Terrorists are also no longer 
focusing on big sophisticated attacks. Everyday items such as 
kitchen knives and delivery trucks are now used as tools of 
terror. The evil is directed to anyone, be it the French police 
strolling the streets of Paris or children and their families 
exiting a concert in Manchester. They have struck bystanders in 
the heart of European capitals and targeted symbols of Europe's 
rich culture. They have also struck small towns--where they 
killed priests, imams--also struck rural communities.
    To many, this challenge seems impossible. How can we stop 
such relentless murder? The first step is not giving in to 
defeatism. We cannot accept this terror as the new norm. Some 
people unfortunately are accepting terror as a way of life. We 
also cannot write this off as a European problem.
    The terrorists want to destroy shared values and our way of 
life. They want to kill Americans as much as Europeans and we 
must stand together with Europe and fight this battle together. 
Frankly, our European partners have put up with dangerous 
extremism for far too long.
    Groups openly advocating Islamic law calling for the end of 
democracy and supporting a brand of Islam shared by ISIS 
operate freely across the European continent. These groups are 
breeding grounds for extremism and ground zero for terrorist 
recruitment. We must not allow our Western values to be 
exploited by those who seek to destroy those values, and we 
must not allow the technology borne of our free and 
enterprising societies to be exploited for murder by terrorist 
groups.
    Terrorists today use social media and apps to spread their 
hate, to fundraise, to recruit, and to advise untrained 
supporters how to carry out murder. They even offer plots on 
how to build bombs on social media. We must fight the 
terrorists both on the battlefield and online. Twitter, 
YouTube, and Facebook have taken some steps to shut down 
extremist accounts. We applaud those efforts and stand ready to 
assist them to do more. Others need to do a lot more, 
specifically Telegram, which has been described as the app of 
choice for jihadists, and is one of the services doing not near 
enough. If we seriously want to defeat terrorism, we will have 
to bring down, bring the fight to cyberspace.
    Last year, I introduced the Combat Terrorist Use of Social 
Media Act which requires a strategy to get terrorists offline. 
The bill eventually became law as part of the Department of 
State Authorities Act, and we still are waiting for the 
administration to provide this critical strategy because lives 
are at stake.
    Additionally, we must keep the vital intelligence sharing 
channels with our allies open. Since ISIS made its rapid 
advance across the Middle East in 2014, a concerning amount of 
Westerners have made their way to the terrorist battlefields. 
This is especially true in Europe. As many as 5,000 Europeans 
have traveled to Iraq and Syria. Now that ISIS is losing on the 
battlefield, many of these foreign fighters may want to bring 
the fight back home and kill people where they originated from.
    A recent report on jihadist attacks in the West says that 
73 percent of attackers are citizens of the country they are 
attacking, and as many as 82 percent of attackers have been 
previously flagged by law enforcement authorities. Sharing 
intelligence will help us to spot these individuals returning 
from battlefields. Intelligence sharing can only be useful if 
we protect our borders from these individuals.
    One of the London Bridge terrorists earlier this month was 
allowed to enter the United Kingdom despite being put on a 
security watch list. If someone has been flagged for terrorism 
they should not be able to enter another country until that 
case has been closed. What is the purpose of placing someone on 
a watch list if that person is able to travel freely?
    Vigilance is more critical today than ever before. The 
terrorists will exploit our values and loopholes to maximize 
death, fear, and terror. We must stand together and fight this 
threat with our European allies because a threat to one is 
really a threat to all. And I will recognize the ranking 
member, Mr. Keating from Massachusetts, for his opening 
statement.
    Mr. Keating. Well, thank you, Chairman Poe and Chairman 
Rohrabacher, members, and Ranking Member Meeks, and thank you 
witnesses for being here. Chairman Poe and I, as well as other 
members of our subcommittees, have introduced resolutions 
regarding terrorist attacks when they have been carried out 
against our European allies including countries that stood with 
us in honoring their Article 5 commitments under our NATO 
alliance. We stand with them in solidarity of this recent and 
all too frequent loss of innocent lives in their countries.
    We are convening this hearing because understanding how to 
address this threat to our allies is not only an issue related 
to their security and our own, but also an arena where there is 
an incredible opportunity to learn from and collaborate with 
our European partners. Europe faces diverse and significant 
challenges in the fight against terrorism and extremism.
    At the country level, the landscape is unique to each 
country with foreign fighter travel posing a significantly 
greater threat for some, whereas for others the individuals 
carrying out these attacks were radicalized without ever 
leaving their country. At the regional level, our allies' 
commitments to open borders within the EU proved to be a 
challenging aspect of European integration within the context 
of the fight against terrorism.
    However, I have seen firsthand how member states and EU 
institutions have taken this threat seriously and how they have 
been working diligently to improve their collaboration around 
tracking individuals who may have been radicalized and in 
identifying the best ways to tackle this threat. They have also 
experimented with different models for rooting out and 
preventing extremism and for dealing with foreign fighters 
returning home from ISIL-held areas.
    Some models have relied heavily on civil society 
organizations and communities themselves and in investing in 
productive collaboration between them and law enforcement. Some 
have focused on inclusive strategies to address extremism by 
working closely with the women in these communities and with 
religious leaders. Others have tried to address the profound 
threat of radicalization in prisons, where one strategy to 
imprison and therefore remove the threat posed by those who 
travel abroad to support ISIL and other terrorist organizations 
backfired, and instead exacerbated that threat.
    They are also exploring different ways to remove extremist 
content online that is used to recruit vulnerable individuals 
to engage in terrorist activity and to take down terrorist 
financing and money laundering schemes that make it possible 
for ISIL and others to fund the operations that target innocent 
civilians in these brutal attacks.
    As we work here in Congress and with agencies in the 
executive branch to make sure we are nimble and effective in 
countering terrorist threats here and threats to our allies 
abroad, we can learn a lot from the efforts of our European 
friends. So today I look forward to hearing from our witnesses 
about what we can learn from Europe and their experiences with 
terrorism and the efforts to combat it, as well as what we can 
do better here in the United States to work with our European 
partners to eradicate the threat of terrorism here at home and 
abroad. I want to thank the witnesses for being here and I 
yield back.
    Mr. Poe. And I thank the gentleman from Massachusetts. The 
Chair will now recognize Chairman Dana Rohrabacher from 
California, the chairman of the Subcommittee on Europe, 
Eurasia, and Emerging Threats, for his opening remarks.
    Mr. Rohrabacher. Good afternoon and thank you, Mr.--I 
always want to call him Judge Poe.
    Mr. Poe. You should.
    Mr. Rohrabacher. Your Honor, thank you very much for 
holding this hearing jointly with the Europe and Eurasia 
Subcommittee which I am the chairman of, so thank you to the 
witnesses as well.
    Our partners and our allies in Europe have suffered 
terribly at the hands of violent Islamic terrorists. We can say 
that. For a long time our Federal Government didn't seem to be 
able to say that. The latest outbursts of violence in the 
United Kingdom have been shocking to all of us. The resilience 
of the British people, however, is inspiring and reminds me of 
why America is fortunate to call the British people our 
friends.
    This hearing serves as one more example of our trans-
Atlantic solidarity and our commitment to confront and destroy 
evil forces in this world. These same forces seek to brutally 
murder innocent people in order to terrorize the people of the 
world into submission to their fanatic brand of Islam. While 
our strength and will remains consistent, the tactics and 
methods of extremist Islamicists continue to evolve.
    As our police and security services have been foiling 
elaborate plots and breaking terrorist networks, ISIL and other 
terrorist organizations created new kinds of plots that require 
more ingenuity and more flexibility to counter. Such insidious 
methods are hard for any security service to thwart. As we see 
today, police forces in Europe are being especially challenged.
    Large migrant populations, some of which have remained 
famously unintegrated into their new country, present a 
perplexing challenge that pits humanitarian impulses to try to 
help poor refugees against the necessity of protecting one's 
own populations. To some extent, these domestic issues are the 
ones that European citizens and European governments will have 
to work out to their own satisfaction and find a balance 
between these humanitarian impulses and these ideas of 
protecting their society.
    However, we Americans must stand in solidarity against what 
evil doers do, against those evil doers who murder vulnerable 
populations to achieve their ends. I look forward to learning 
from the witnesses today on how the United States might be able 
to lend a hand to our European friends that are under attack 
and understand also the threat that faces us.
    And one last point that I would like to add into the 
discussion and that is, I had the pleasure of actually going 
after one terrorist attack in Boston with my ranking member at 
the time, and we were there in order to see if there could be 
cooperation between Russia and the United States in dealing 
with the terrorist threat. I would say that when we left, I was 
very satisfied that the Russian Government was willing to work 
with us and they actually gave us information at that time 
which was very valuable in analyzing what had happened in this 
massacre of people at the Boston Marathon.
    And with that said, since that time our relations with 
Russia have gone down so dramatically that it has hindered us 
from working together with the Russians to defeat this threat 
to the planet. This is a threat, we are talking about radical 
Islamic terrorism, is a threat to every good person on the 
planet whether whatever country they come from.
    And let me just note I am interested in hearing our 
witnesses to see if there is something if you believe that 
working with Russia in trying to thwart radical Islamic 
terrorism is something that should be on our to-do list. So 
with that said, thank you for being with us today, I look 
forward to hearing your testimony. And I especially want to 
thank Judge Poe for calling this hearing and letting my 
subcommittee participate.
    Mr. Poe. I thank the gentleman from California. The Chair 
recognizes the ranking member on the Europe, Eurasia, and 
Emerging Threats Subcommittee, Mr. Meeks from New York, for his 
opening statement.
    Mr. Meeks. Thank you, Chairman Poe and Chairman 
Rohrabacher, for calling this hearing to address the growing 
threat to come to our--that is coming and that is with our 
allies in Europe, terrorism.
    Let me just point out, it is not only a threat to our 
allies in Europe, however, it is a threat to those outside of 
NATO as well. It is a threat to our free democratic system in 
this sense and we need our allies together. In fact, we had a 
meeting today with the secretary general of the U.N. When asked 
what was his number one fear was, it was the international 
aspect. He stated it was the international aspect of terrorism 
and how they can try to come together to create a global 
terrorist threat.
    So it is extremely timely and I think important to 
appreciate the effort to signal that this problem, you know, 
that we have specifically for our European allies, because they 
are asking what are we thinking and how can we work together. 
It is especially important when we find that our President has 
found it difficult at times to talk about the importance of 
such alliances, you know, because as Mr. Keating has indicated, 
after 9/11 that is the only time when Article 5 was triggered.
    So I would hope that we speak with one voice in regards to 
our President not sending conflicting messages out about NATO 
and the EU. In fact, it was disturbing when I saw the new PEW 
polling shows how drastically confidence in the United States 
President has eroded around the world, not just in Europe, and 
a fractured trans-Atlantic alliance allows more space for 
terrorists to recruit and act both in Europe and here at home.
    Terrorism in Europe is a multifaceted threat that while 
credible and deadly in some countries has proven to be more 
nuanced in others. Most recently in the United Kingdom and 
France, for example, we witnessed the barrage of coordinated 
and other lone wolf attacks. However, in Central Europe, 
governing politicians point to welcoming refugee policies in 
other European countries as a leading contributor to terrorism 
in order to push their agenda of stronger border control. In 
fact, you have to go all the way to Russia to find similar 
examples of terror in Eastern Europe.
    But in Turkey, another NATO ally that has been under attack 
by terrorists have pummeled cities across the country, but 
seemingly we see less attention for doing so. So this brings me 
to my first point of clarification, threat perception.
    Politicians on all sides and the media are attracted to 
shocking stories of terror in Europe. These acts have taken 
center stage with the help of CCTV and cell phones that can 
immediately transmit horrifying videos across the world. In 
this sense, advanced technology has made the terrorized aspect 
of terrorism a lot easier and also something that we must focus 
on because the threat is very real.
    Foreign fighters from Western Europe, the Balkans, and 
Russia will return home from Syria having perhaps become more 
radicalized in their quest for glory. Some may return home 
disheartened, giving our authorities an easier opportunity to 
learn more about the attraction. And we have got to figure out 
the differences too so that we can make sure it is to our 
advantage.
    One key aspect to preventing radicalization in the first 
place, which is something that we should look at also, is 
understanding the drivers that push a young man or woman into 
such radical territory. Thankfully, we have best-practice 
examples that show us there is no one-size-fits-all solution 
and that the problem is evolving.
    Italy, a country with thousands of migrants and refugees 
arriving on its shores, is able to accept them in a humane 
manner, discern the proper status for the people, and move the 
process along. The process is by no means perfect, yet the help 
of Frontex and Europol and international humanitarian 
organizations are absolutely essential.
    And the American story can be of use here. I believe that 
despite our bumps and bruises we can help European nations in 
integrating communities into their societies. On paper European 
states may be all-inclusive, but this often differs in practice 
which it does as well here in the United States. As a result, 
some communities are forgotten or isolated and susceptible to 
radicalization.
    So we have got to focus on what we can do to try to prevent 
them from being radicalized. I look forward to engaging with 
our witnesses to discuss how the U.S. can learn from and help 
our European allies who are under attack. And I thank you and I 
yield back.
    Mr. Poe. And I thank the gentleman from New York.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record 
subject to the length limitation in the rules. And, without 
objection, all witnesses' prepared statements will be made part 
of this record. I ask that each witness keep your presentation 
to no more than 5 minutes. If you see a red light come up in 
front of you that means stop.
    I will introduce each witness and give them time for their 
opening statements. Mr. Seamus Hughes is the deputy director of 
the program on extremism at George Washington University. He is 
an expert on terrorism, homegrown violent extremism, and 
countering violent extremism.
    Mr. Robin Simcox is the Margaret Thatcher fellow at the 
Heritage Foundation's Margaret Thatcher Center for Freedom. He 
specializes in counterterrorism and national security policy.
    Dr. R. Kim Cragin is the senior research fellow for 
counterterrorism at the National Defense University. She 
recently left a position as a political scientist at the Rand 
Corporation and also has taught at Georgetown University and 
the University of Maryland.
    Ms. Georgia Holmer is the director of CVE at the United 
States Institute of Peace where she oversees a broad portfolio 
of CVE and rule of law related subjects and projects and 
research. She chairs the USIP working group on Counter Violent 
Extremism.
    And, Mr. Hughes, we will start with you. You have 5 
minutes.

  STATEMENT OF MR. SEAMUS HUGHES, DEPUTY DIRECTOR, PROGRAM ON 
            EXTREMISM, GEORGE WASHINGTON UNIVERSITY

    Mr. Hughes. Thank you. Chairmen, ranking members, 
distinguished members of the committee, it is a privilege to be 
invited to speak to you today. Europe is facing a sustained 
threat from the Islamic State. It is estimated more than 5,000 
Europeans have traveled to Syria to join ISIS. The percentage 
of European foreign fighters who have returned to their 
countries of departure is estimated as high as 30 percent.
    In the United States, some 250 Americans have traveled or 
attempted to travel to ISIS controlled territory. Of the 250, 
the Program on Extremism has identified more than 60 U.S.-based 
individuals who successfully migrated to Syria. There is not a 
typical profile of an American or European ISIS recruit. They 
vary in socioeconomic background, age, gender, location, and 
the degree of religiosity.
    Until recently, ISIS operated a relative safe haven from 
which they could plan attacks. Despite recent territorial 
losses, it continues to maintain a cadre of sympathizers who 
feel an obligation to help the caliphate. This is one of the 
main factors that helps explain the wave of attacks, both 
thwarted and successful, that have hit Europe and the United 
States in recent months.
    Since 2014, we have identified 51 attacks in Europe and 
North America. The vast majority of the perpetrators were 
citizens of the country in which they committed the attack. 
Only 5 percent of those who carried out the attacks were 
refugees or asylum seekers. Most had a prior criminal past. 
Less than 10 percent were directly ordered by ISIS to commit 
the attacks.
    In most cases, the attackers were ISIS-inspired or had some 
touchpoint but no explicit direction. About 20 percent of the 
attackers were returning foreign fighters, but those that did 
commit those attacks were more lethal in their attacks. The 
majority of the perpetrators who pledge allegiance to ISIS 
before their attacks and after their attack, ISIS took credit 
for about 40 percent of them.
    France has experienced the highest number of attacks at 17, 
followed closely and perhaps surprisingly by the United States 
with 16 attacks. Attacks in the U.S. tend to be significantly 
more unstructured and spontaneous than Europe even though some 
of them, Orlando and San Bernardino being good examples, have 
been no less deadly.
    According to Europol, there have been 395 jihadist-related 
arrests in 2014, 687 in 2015, and 718 in 2016. Numbers are much 
lower in the United States where 18 individuals were arrested 
for terrorism-related activities in 2014, 75 in 2015, which was 
a banner year for us, and just 36 in 2016. Unlike Europe, the 
United States does not seem to possess extensive homegrown 
militant organizations that provide in-person ideological or 
logistical support to individuals drawn to ISIS.
    Jihadist propaganda has been and it continues to be easily 
accessible through various online platforms for the last 10 
years. It has played a role in radicalizing Westerners. Now 
with the advent of numerous social media applications, a would-
be recruit can access real-time support and have a stronger 
sense that they are part of a wider network.
    An important dynamic that is at play right now is ISIS has 
systematically employed what we call ISIS virtual entrepreneurs 
who use social media to connect people in the West. These are 
individuals in Raqqa, about six to eight English language folks 
that are reaching out to Americans and Europeans, individuals 
like Junaid Hussain, a British citizen. They were involved in 
at least 21 percent of domestic plots in the U.S. During that 
same time period, 19 of 38 ISIS-linked plots in Europe involved 
some form of online instruction.
    Technology companies have addressed ISIS online activities 
in two ways, content based regulation and counter messaging. 
Although well meaning, the current approaches by Twitter, 
Google, Facebook, Microsoft, to name a few, may not necessarily 
address the new types of encrypted channels on platforms like 
the chairman mentioned, Telegram, now commonly frequented by 
violent extremists.
    And even though online radicalization phenomenon receives a 
lot of attention, offline dynamics still matter a great deal. 
That one-on-one human interaction still matters. Perhaps more 
than in the U.S., physical networks in Europe remain of 
significant importance.
    Finally, it is important to note that far right movements 
in Europe have taken advantage of the recent wave of ISIS-
inspired attacks in Europe to mobilize old and new followers. 
These groups tend to ignore distinctions between Islam, 
Islamism, and jihadism, seeing all Muslims as a threat. It has 
triggered indiscriminate attacks against innocent Muslim 
communities.
    We have seen how both extreme movements, jihadists and 
extreme far right, have fed off of each other and used this to 
assist in their recruitment efforts. This pervasive dynamic of 
reciprocal radicalization between jihadists and far right 
extremists is a troubling trend that needs to be monitored. 
Thank you for an opportunity to testify before you. I welcome 
your questions.
    [The prepared statement of Mr. Hughes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Mr. Simcox?

STATEMENT OF MR. ROBIN SIMCOX, MARGARET THATCHER FELLOW, DAVIS 
    INSTITUTE FOR NATIONAL SECURITY AND FOREIGN POLICY, THE 
                      HERITAGE FOUNDATION

    Mr. Simcox. Thank you. Chairman Poe, distinguished members 
of the subcommittee, thank you for the opportunity to testify 
here today. The views I express in this testimony are my own 
and do not represent the official position of the Heritage 
Foundation.
    My goal this afternoon is to highlight the severe threat 
that Islamist terrorism poses to Europe. There are several 
aspects to the threat which I will discuss today. The first is 
the scale. As we all know, recently there has been much 
discussion by governments across the continents of the threat 
posed by foreign terrorist fighters. This refers to the at 
least 5,000 to 6,000 Europeans who have fought alongside ISIS 
and other Islamist groups in Syria and Iraq and are now 
returning to their home countries.
    Most devastatingly, members of the cell that committed 
ISIS' attacks in Paris in November 2015, killing 130 and 
wounding 368, had traveled to Syria from Europe, fought and 
trained with ISIS, and then returned to Europe to carry out an 
attack. This cell also contained ISIS members who had entered 
Europe from Syria after making false asylum claims.
    While the majority of Syrian refugees are not tied to 
terrorism, Germany in particular has seen a sharp uptick in the 
threat it faces following the recent influx. There was an 
eightfold increase in plots between 2015 and 2016, largely due 
to a surge of those involving refugees. In fact, Germany faced 
more Islamist plots last year than it did in the entire 2000 to 
2015 period.
    As the U.S. has experienced with the attacks in San 
Bernardino and Orlando, European governments also have a very 
significant problem with homegrown radicals. To give an idea of 
the scale of this threat, the U.K. has approximately 23,000 
terrorist suspects on the radar. Within this are 3,000 suspects 
assessed to be the most imminent threats. However, such 
assessments will never be foolproof and there always lies the 
possibility that the likes of Westminster Bridge attack of 
Khalid Masood, who was on the radar but not thought to be an 
imminent danger, slips through the net.
    The second aspect is the breadth of terrorism throughout 
Europe. Data from my forthcoming Heritage research demonstrates 
that the number of plots Europe has faced since 2014 has risen 
year-on-year. Between January 2014 and the end of May 2017, 
there had been 15 separate countries targeted, most commonly 
Belgium, France, Germany, and the U.K. This year there have 
been multiple attacks on traditional Islamist targets in the 
U.K. and France.
    Yet, an ISIS-linked asylum seeker from Uzbekistan also 
killed five people and injured 15 in a truck attack in 
Stockholm and an Italian Tunisian inspired by ISIS stabbed 
multiple police officers and soldiers at a train station in 
Milan. Furthermore, while there are certainly trends, it is 
impossible to build that catch-all profile of who will carry 
out these attacks. It is not just young men, for example. 
Khalid Masood, the Westminster Bridge attacker, was 52.
    My research has even shown an uptick in plotting by 
teenagers and girls. For example, in February 2016, a 
radicalized 15-year-old German girl in contact with ISIS 
stabbed a police officer in Hanover.
    So you have those who have criminal records and those who 
do not, those who trained with terrorists and those who have 
not, those who are well educated or affluent as well as those 
who are poorly educated or are from a lower socioeconomic 
background. All were drawn into the terrorist orbits and 
planned attacks in Europe.
    The third aspect is the range of weapons now used by 
terrorists. Since November 2015, Belgium, France, Germany, and 
the U.K. have all seen operatives requiring expertise and 
materials to assemble suicide bombs without having their plans 
thwarted. There has not been a lack of willing volunteers to 
carry out these suicide missions, including Salman Abedi who 
committed the attack in Manchester.
    There has also been a multitude of plots involving 
firearms, knives, or some other form of edged weapons such as a 
machete or an axe, and of course the use of vehicles. There 
have been no publicly disclosed instances in which these 
vehicular attacks have been thwarted by authorities. We have 
seen the consequences of this in Nice, Berlin, Stockholm, 
London, and elsewhere. Because of such factors, over 1,400 
people were injured and over 300 people killed in Islamist 
attacks in Europe in the past 3\1/2\ years. Included in this 
number are nine Americans.
    Chairman Poe, distinguished members of the subcommittee, 
the grave danger that terrorism poses to Europe is only likely 
to increase. The U.S. must work with Europe to defeat those 
threats. Thank you for inviting me to discuss this with you, 
and I look forward to any questions.
    [The prepared statement of Mr. Simcox follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. I thank the gentleman.
    Dr. Cragin?

 STATEMENT OF R. KIM CRAGIN, PH.D., SENIOR RESEARCH FELLOW FOR 
   COUNTERTERRORISM, CENTER FOR COMPLEX OPERATIONS, NATIONAL 
                       DEFENSE UNIVERSITY

    Ms. Cragin. I would like to thank the chairs and the 
ranking members for inviting me to testify on the subject of 
the threat posed to Europe and the West by the Islamic State in 
Iraq and Syria, or ISIS.
    Over the past 20 years I have explored the topics of what 
motivates individuals to become terrorists, how terrorist 
groups adapt, and counterterrorism. Much of this research has 
focused on what is often referred to as foreign fighters or 
individuals who leave their homes and travel abroad to fight. 
My written testimony provides the details of this research and 
I plan to summarize it briefly today.
    As you know, ISIS stepped into the global spotlight in June 
2014 after its spokesman, al-Adnani, announced a newly formed 
Islamic caliphate. Soon thereafter, ISIS began to consolidate 
control over territory within Syria and Iraq, but it also 
established provinces outside the Levant. Today, ISIS has 25 
provinces in 11 countries.
    The apparent focus by ISIS on control over territory caused 
many to conclude at the time that ISIS was less interested in 
attacking the West than al-Qaeda. This has proven to be false. 
The first successful attack by a foreign fighter returnee took 
place in May 2014 at the Jewish Museum in Brussels. The 
perpetrator was part of a cell overseen by al-Adnani until his 
death in August 2017. This suggests that ISIS leaders intended 
to attack the West months before they even declared a 
caliphate.
    The overall pattern of attacks by ISIS reinforces this 
conclusion. Between June 2014 and May 2017, ISIS operatives 
conducted approximately 225 attacks outside Syria and Iraq, 42 
percent were external operations or attacks outside of those 
provinces. To put this in perspective, ISIS has been more 
aggressive in its external operations than al-Qaeda.
    Only 10 percent of al-Qaeda's attacks between 2008 and 2010 
took place outside of countries with affiliates, 10 percent for 
al-Qaeda, 42 percent for ISIS. And to truly understand this 
threat we need to examine both successful and failed attacks 
and the numbers become even more grim. Fifty-eight percent of 
all ISIS external operations, including both attacks and plots, 
have taken place in the West.
    Let's take the November 2015 attacks in Paris as an 
example. There were nine core operatives, seven foreign fighter 
returnees, two Iraqis. They recruited an additional 21 
individuals to help with logistics once they arrived in Europe, 
seven of these recruits were foreign fighter returnees and 14 
were not. Foreign fighters return home to conduct attacks, they 
also recruit others to help. That is the bad news.
    The good news is that the Paris attacks acted as a catalyst 
for the West. Since then, Spain has detained 159 individuals 
and interrupted at least six plots. France has foiled 22 plots. 
The U.K. has detained almost 300 and foiled 18 plots. In fact, 
the combined efforts by law enforcement intelligence and 
military forces led to a plummet in the number of successful 
external operations by foreign fighters in late 2016. This 
predates the Mosul offensive. It tells me that the U.S. and its 
allies have come up with the correct formula to minimize the 
threat posed by foreign fighter returnees.
    But it is only a short-term solution because arresting 
individuals preemptively causes short prison terms. It also 
presents the threat of prison radicalization, and it is hard to 
see how this formula can be applied by less affluent countries. 
Unfortunately, ISIS has also proven itself to be adaptive and 
the recent attacks in England tragically underscore that there 
is still more to be done.
    I mentioned that successful attacks by foreign fighters 
plummeted in August 2016, but the overall trend in external 
operations continues to go up. So why? As attacks by foreign 
fighters plummeted, they were replaced by attacks conducted by 
local recruits with directed guidance from ISIS fighters based 
in Syria, sometimes referred to as virtual planners or virtual 
entrepreneurs. Virtual planners identify local recruits, 
introduce them to individuals with technical expertise, and 
help pick the target, all via Telegram or WhatsApp, which 
brings me to the final question of what more can be done.
    I don't want to leave the impression that we solved the 
problem in the West by foreign fighter internees, we haven't. 
But the most urgent need is to find a way to take this formula 
developed by the U.S. and its European allies and expand it 
geographically. And beyond this most urgent need, we need to 
fit these and other programs within a wider transregional 
strategy that includes a global architecture to address the 
threat from foreign fighter returnees and virtual planners.
    [The prepared statement of Ms. Cragin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. And Ms. Holmer?

 STATEMENT OF MS. GEORGIA HOLMER, DIRECTOR, COUNTERING VIOLENT 
          EXTREMISM, UNITED STATES INSTITUTE OF PEACE

    Ms. Holmer. Good afternoon, Mr. Chairmen and ranking 
members. Thank you for the opportunity to testify today. Please 
note that my comments reflect my own views and not necessarily 
that of the U.S. Institute of Peace.
    I began my career working on terrorism in Europe for the 
FBI over 20 years ago. That was the tail end of a wave of 
Marxist and nationalist political violence in Europe that 
included kidnappings, bombings, and assassinations that led to 
the loss of many lives and generated the same feelings of fear 
and outrage as we are experiencing today.
    The wave of political violence being experienced in Europe 
is different today, however. The groups are less cohesive. We 
are witnessing not only directed attacks, but self-inspired 
acts of violence. The goals, motives, and justification for the 
violence have changed as well and the ideology is rooted now in 
a narrative of religious militancy. Unlike the wave of 
terrorism in Europe in the 1970s through the 1990s, the targets 
today are more indiscriminate and there is more of a 
willingness on the part of attackers to die.
    But what has also changed has been the response. 
Counterterrorism investigations today are more sophisticated. 
There are more mechanisms for international cooperation and 
collaboration. There has also been a steadily increasing 
awareness and understanding that effective counterterrorism 
operations are critical but insufficient without an investment 
in prevention.
    Law enforcement and security services cannot possibly 
anticipate and disrupt every potential attack, especially low-
level attacks involving one man and a truck and a knife.
    Understanding why individuals are willing to give their 
lives to a violent extremist movement or cause and working to 
address the issues and grievances that push them in that 
direction is a critical investment of American time and 
resources.
    Last year, USIP conducted research on understanding why the 
small European country of Kosovo had one of the highest rates 
per capita of foreign fighters traveling to support ISIS in 
Iraq and Syria. The answer, in short, was that a robust 
recruitment infrastructure had flourished in the region and 
youth found their messages particularly compelling because of 
their frustration with their own lives, lack of opportunity, 
conflicting ideas about their identity, and an inherited legacy 
of conflict and violence.
    Kosovo faces a multifaceted challenge now, managing the 
return of those who went to Iraq and Syria as well as those who 
never left but have radicalized and are intent on causing harm, 
and also preventing new recruits from forming and radical 
groups from flourishing. Kosovo is not alone in facing these 
challenges, but their experience illustrates how important it 
is to have effective programs and strategies to prevent 
individuals from radicalizing and joining these groups, or 
rejoining once they are out of prison.
    I would like to offer that there are three critical and 
interrelated areas in which efforts to prevent radicalization 
can be most effectively advanced and in which our European 
partners have made significant progress, in part because of 
their long history of dealing with terrorism. First, is 
increasing public awareness and engagement in preventing 
radicalization.
    Preventing early stage radicalization, especially for those 
who have never engaged in criminal activity, is out of reach of 
law enforcement and is more appropriately addressed by family 
and community members who know and care about those who are 
vulnerable to recruitment. Much of this work in Europe is led 
by NGOs, but supported by municipal and national governments in 
the EU.
    Community level programs involving teachers and social 
workers, religious leaders and families who help build the 
resilience of youth and then intervene appropriately when they 
show signs of influence have proliferated in Europe. These 
efforts include but go beyond countering the radical ideology 
that underpins these groups and attracts groups to address the 
relationships and practical issues that make youth vulnerable 
to recruitment in the first place. Ideology, after all, is how 
they are recruited, not why they join.
    Secondly, ensuring effective and accountable criminal 
justice and law enforcement procedures. An individual's 
touchpoints with the criminal justice sector can profoundly 
influence his or her trajectory away from or toward violence. 
Police play critical and sophisticated roles in deterrence. The 
establishment of accountable information sharing mechanisms 
between the public and law enforcement helps ensure that 
individuals are not prematurely criminalized, and many European 
law enforcement services have implemented referral mechanisms, 
especially as more and more non-government actors are involved 
in this space.
    Third, working to prevent recidivism. After prison, many 
individuals return to the same environment in which they 
radicalized in the first place. And even if they do not engage 
in violent activity directly, they may continue to espouse 
ideas that encourage violence or help with recruitment. 
Effective reintegration programs are an imperative, and Europe 
has a number of programs that were originally developed to 
address members of biker gangs, neo-Nazis, and quasi-criminal 
groups. Some of these programs have been tailored in recent 
years to address the reintegration of former violent extremists 
and support their continued disengagement from violence.
    The U.S. has been a leader in efforts to prevent violent 
extremism and counterterrorism and can continue to support our 
allies in Europe in this role in prevention. Thank you for your 
time.
    [The prepared statement of Ms. Holmer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                             
                             ----------                              

    Mr. Poe. I thank the witnesses and thank you for staying on 
time. We all appreciate that. The Chair will reserve its 
questions for last. I will recognize the chairman of the 
European Subcommittee, Mr. Rohrabacher, for his questions.
    Mr. Rohrabacher. Well, first and foremost, I want to thank 
the witnesses. You have given us a really good foundation to 
look at this. And, you know, it is perplexing, people's lives 
are at stake, and your statistics and your analysis of it, 
frankly, we needed your help and thank you for being here. And 
thank you, Your Honor, for holding this hearing.
    I would like to ask--you have some information for us on 
this I am sure. How much spying is being done by our Government 
of our own people? I mean every time it has come for a vote, I 
voted against permitting the government to have more spying on 
American citizens, all right. And we are faced with this 
decision. Are we going to allow more and more people to tap our 
telephones or whatever they do, go into our internet systems 
and things?
    Do you think that we should be--that that is a wrong vote 
on my part? Am I wrong for not agreeing to allow the law 
enforcement and our protectors to actually have greater 
leverage in spying on American citizens who might be related to 
someone who came, migrated here last, you know, 10 years ago or 
something? Who wants to answer that question? Oh, come on. Be 
courageous. We have to vote on it.
    Mr. Hughes. Yeah, I will take the easy one. I agree with 
the chairman in terms of the question of intelligence is 
onefold, right. Now the fact that you have a FISA and thousands 
of documents on that individual gives you insight into the 
person, but it is one thing to have the intelligence and 
another thing to have their agents and resources to run that 
down.
    And I think that is a lot of the problem with the issues we 
are dealing with in Europe and some parts in America, where you 
have an influx of information whether it is social media, 
whether it is wiretaps and things like that, but not an ability 
to kind of act on that and not knowing when to act. So to the 
extent we can kind of limit the data to just what exactly what 
we need and help kind of bring down the level of general----
    Mr. Rohrabacher. We are cooperating with Europe, correctly, 
are we involved in spying on European citizens in order to 
track down these terrorists that we wouldn't be allowed to do 
in our own country? Anybody know the answer, go for it.
    Mr. Simcox. Well, I know that the European governments, 
especially the ones that work very closely with the U.S. of 
which the U.K. certainly is one of those countries, are 
tremendously grateful for the help that the U.S. offers in 
terms of the intelligence capacity that it provides which far 
outstrips that of the vast majority of European countries.
    I tend to think and we have a lot of these debates in the 
U.K. as to the privacy, liberty, security debate, obviously it 
is a very tricky one, I tend to think that as long as the 
oversight is robust. And it seems to me, I am not a subject 
matter expert but having looked at the U.S. intelligence 
community oversight seems to be quite robust certainly compared 
to many of the European governments, some of whom perhaps 
complain in public about American spying, but then in private 
are grateful for some of the intelligence that is passed on.
    Mr. Rohrabacher. I think it is highly likely, and I am not 
getting into details right now but probably behind closed 
doors, that we are conducting extensive and then listening and 
hacking, if you will, overseas and we are sharing that with our 
European allies and I would hope we are.
    Let me just ask this and go to this one other issue then 
before my time comes up here. And I mentioned that the ranking 
member and I, Mr. Keating, went to Russia and we met with the 
head of their renamed KGB--FSB, I guess they call it--and they 
were very generous with us with information and they actually 
gave us some information that we believe gave us a better 
understanding of the Boston Marathon bomber and where he was 
coming from and his family background. And by the way, I 
believe had they shared that with us beforehand we might have 
then put him on a higher level of observation.
    And do you think that we should be working with the 
Russians? I would just tell you that I personally, of course I 
am a lone wolf here in the Congress, we need to be working with 
Russia to defeat radical Islam because that threatens their 
people and it threatens our people. And there is no reason in 
the world that I think because we have disagreements in other 
parts of the world that that cooperation should be in some way 
shut off.
    Do you have any thoughts on that and please feel free.
    Ms. Cragin. I will take that one since you----
    Mr. Rohrabacher. I have run out of time but I think they 
will give you time to answer.
    Mr. Poe. You can answer the question about Russia.
    Ms. Cragin. Over the past couple years I have been involved 
in some Track II diplomacy discussions with Russian academics, 
and we have wrestled with this issue of to what extent could we 
cooperate and how could we cooperate on counterterrorism. So I 
will just tell you sort of my impressions from that.
    We kept getting bogged down. Now we were academics so we 
are not policy makers. We kept getting bogged down and I will 
summarize how we got bogged down. We kept getting bogged down 
because as an American I am comfortable with a certain amount 
of instability in pursuit of democratic values, so I am 
probably more risk-seeking. I am willing to accept some risk 
with democratic values being established. And my Russian 
counterpart, the ultimate goal was stability.
    And so we just kept getting bogged down in these areas. 
Almost everything came down to this almost cultural or value-
based tension. And so I would just offer that to you as you 
think about the practicality of it. We just couldn't seem to 
come to a lot of solution on it.
    Mr. Rohrabacher. But it is worth trying, right?
    Ms. Cragin. It was an interesting experience, I will say 
that.
    Mr. Rohrabacher. Thank you.
    Mr. Poe. The gentleman's time has expired. The Chair 
recognizes the ranking member, the gentleman from 
Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. This is a great 
hearing. Between this committee and the Homeland Security 
Committee I am on, I spend a great deal of my time looking at 
issues of terrorism and it is a complex area. There is no 
simple solution. But we are spending some time today on an area 
that I am very intrigued by and I think we haven't come close 
to maximizing our prevention efforts in.
    And I was listening to Ms. Holmer's testimony as a former 
FBI person and my own experiences as a district attorney, and 
there are similarities between how we approach crime issues and 
these terrorist crimes as well. You know, when I was in Europe 
a couple of years ago, the Hollings Center was doing a study on 
trying to find common characteristics among terrorists, people 
that were radicalized.
    And, you know, they were dealing with things like whether 
there was a male role model, strong male presence in the 
family, and some of these characteristics in fact much less 
scientific. I remember the testimony of the former FBI Director 
Comey in front of our committee saying, describing these people 
as poor souls, but there is something to that.
    Ms. Holmer, could you tell us from your experience, I could 
tell from your testimony, some of the common characteristics 
that are there that make people more prone to being 
radicalized?
    Ms. Holmer. So I think the first answer to that question is 
that it is unique per individual. There are some common trends 
that make people more vulnerable. Certainly we find in the 
European context it has to do with issues of assimilation. It 
has to do with issues of opportunity. It has to do with 
exposure to violence, exposure to criminality, and all of those 
issues make people more vulnerable to recruitment. I think that 
the challenge of course though when you are dealing with such a 
large pool of potential recruits is that it is outside the 
reach of law enforcement to possibly identify them especially 
when you are dealing with such low-level attacks that are self-
inspired.
    Mr. Keating. Right, so how could we empower? I think the 
committee as a whole here is very strong in their support of 
empowering women and mothers to be able to recognize this 
radicalization as it occurs. Are you familiar with any of 
those?
    Ms. Holmer. I am very familiar with it. There is one NGO 
based in Vienna called Women Without Borders that has done some 
very groundbreaking work in this space. And their approach is 
to work with mothers to help them understand early warning 
signs of radicalization in their families so that they might 
intervene, they might know when the role is appropriate for the 
parents, and when it is indeed appropriate to pull in law 
enforcement into a conversation.
    Mr. Keating. Yeah. I think that law enforcement you can 
look at--I had programs like alternatives to prosecution for 
young people. I had mental health diversions and certain 
juvenile probation areas. And really, there is that opportunity 
at an early stage for law enforcement to deal with a lot of 
these issues that correspond.
    In any case, here is a question that I am perplexed with 
too, when you look at Europe and the U.S. in particular, it is 
the amount of radicalization that occurs in prisons in Europe 
versus the radicalization that occurs here. Now it occurs in 
both places, but it is not even close in scope given my 
knowledge in this area.
    Why is it so much more of a problem in Europe? Why is this 
so commonplace in Europe as opposed to the U.S.? What are the 
factors there and what are they doing to correct that--anyone?
    Mr. Simcox. Well, part of the problem is that in Europe the 
release rates are a lot quicker than the U.S., right, so people 
get--the example I always give is that somebody like the person 
that carried out the Brussels 2016 attack had previously been 
convicted for a bank robbery where he shot a Kalashnikov at a 
police officer. I mean in America I think that would lead to a 
pretty lengthy jail sentence. I think in Belgium he got 
something like 3 years. And so he had contact with radicals in 
prison, he was out very quickly, then he carries out these 
attacks.
    I know that European governments are trying all sorts of 
different strategies to deal with this. France has tried 
isolating certain high-risk people, certain radicalizers, but 
then that hasn't really worked. The U.K. has taken a slightly 
different tack. I think part of it is down to numbers. There 
has just been the over, the population of the Muslim population 
in prisons is way, way disproportionate in comparison to the 
overall population. And I know that lots of countries are 
wrestling with different strategies and nobody has been 
terribly successful. And so I think we just need to keep 
experimenting to be frank.
    Mr. Keating. Yes, if could, one more, Mr. Hughes; is that 
all right, Mr. Chairman?
    Mr. Poe. Why not.
    Mr. Hughes. I mean that in terms of the U.S. context, we 
tend to segregate our convicted terrorists and use specially 
administrative measures in order to monitor their phones, 
things like that, put them in Terre Haute or Supermax. So if 
they are radicalized then they are just radicalizing guys 
already radicalized next to them and that tends to work. I 
would agree with Robin, the numbers are smaller.
    I would mention a public policy question we need to grapple 
with; the average prison sentence for an American ISIS recruit 
is about 13 years. We have had about two folks who have already 
been released. We are going to have to grapple with a large 
number of Americans who were arrested for ISIS-related 
activities that are getting out of jail in the not-too-distant 
future.
    And we haven't figured that out. If you talk to the Bureau 
of Prisons or the Department of Homeland Security their eyes 
glaze over on these questions, and I think it is incumbent for 
us to roll up our sleeves and figure this out.
    Mr. Keating. Thank you.
    Mr. Poe. I thank the gentleman. The Chair recognizes the 
gentleman from South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you. I thank the gentleman from Texas for 
holding this hearing and the gentleman from California. I think 
it is important. It is a broad topic. I don't think we are 
going to get to all the areas of discussion in this one 
hearing. I hope we will do it again.
    My concern has been ISIL operatives infiltrating the Muslim 
migration into Europe that we saw last year, last 18 months. A 
lot of those were military age men coming into Europe. 
Countries like Hungary are recognizing their own sovereignty 
and securing their borders, but you don't have that throughout 
Europe especially with Schengen. We are seeing that, you know, 
free flow of people across Europe was exploited by I believe 
one of the Brussels attackers or somebody headed to Brussels 
had a carload of automatic weapons, grenades, and Semtex.
    So a lot of folks that I represent are concerned about 
those folks getting to Europe and staying long enough to gain 
citizenship and being able to come to this country at some 
point in the future. Not present day, but possibly the future. 
ISIL has been in existence for 24 months, 36 months, and so we 
are getting into that timeframe where citizenship can be earned 
and folks could possibly come to the United States with the 
visa waiver programs, et cetera.
    Dr. Cragin, you have done a lot of work regarding the 
threat of returning foreign fighters, Europeans that have gone 
to Syria and Iraq, Libya, and returned back. Now we just saw 
that recently in England. So how can Congress better understand 
this and fight back against that threat?
    Ms. Cragin. So I guess I will start with the refugee issue. 
In my dataset of external operations, so outside of the 
provinces, about 3 percent of the attacks had a refugee 
involved in them. I am not saying it is a nonexistent threat, 
but it is very, very low relative to inspired individuals who 
are already residents and citizens, those directed by virtual 
planners and foreign fighter returnees.
    So when you are looking at a risk assessment and you are 
putting all those in place, my tendency as a counterterrorism 
professional is to look at the foreign fighter returnees and 
now the virtual planners, so just to put that in context.
    Now looking at the foreign fighter returnees, I do think 
that intelligence cooperation and in coordination with law 
enforcement and military activities has improved significantly 
I would say since 2016, late 2015, early 2016, and so we are on 
the right track. My biggest concern in that area are the 
foreign fighter returnees that are going to be going to North 
Africa. And Tunisia, we said all of Europe was 5,000, Tunisia 
has 6,500 and Tunisia is awfully close to Europe. And so that 
is my concern, they simply do not have the capacity nor the 
intelligence assets that we have.
    So if you are interested in helping out Europe, the next 
step is actually to broaden that cooperation and try and find a 
way to help Egypt, help Tunisia, and Jordan to a certain 
extent, to make sure that they can absorb and reintegrate their 
foreign fighters returnees and those are very, very large 
numbers that are coming home.
    Mr. Duncan. I agree with you on that. Do you think you are 
going to see and we already have seen, but do you think you are 
going to see more border control measures put in place, less 
Schengen, free travel? We have seen Germany do a little bit of 
that, France do a little bit of that, but definitely saw 
Hungary, which wasn't Schengen, I realize that, but concern 
about migration into their country or at least through their 
countries.
    Do you think Europe will address the open border situation 
and see more return to border controls or do you think they are 
going to continue with the open border situation that we have 
now? And Dr. Cragin, I would just address that to you. 
Whichever one would want to answer, but we are on the clock.
    Ms. Cragin. So I haven't talked to European officials so I 
don't know what they intend to do. As a counterterrorism 
professional, border security is one part. But personally, in 
my research the more you can push out the threat and deal with 
it outside of Europe, as I said in sort of North Africa and the 
Levant, then that is better than relying on border security 
measures as they are crossing back into Europe, quite frankly. 
That is just sort of my----
    Mr. Duncan. You are talking about wide range in Middle East 
and North Africa and we have seen the fighters coming across 
from Libya, Tunisia to Morocco over to Portugal over to Spain--
Italy has got a huge problem. People getting on rafts out of 
Libya to Malta, and in Malta they are in the European Union. So 
there is a lot of issues. That is a big, broad area.
    The fact of the matter is there are people already in 
Europe that could be radicalized. There are people already in 
Europe that have traveled from the Middle East through this 
migration that are military age men who could have been 
inspired before they ever left. They have got a problem in the 
country. I understand what you are saying, but the problem and 
what we have seen have been people inspired in Europe, maybe 
they came from North Africa at some point, but they have been 
there long enough.
    So the issue today are the people that are in the country, 
their ability to travel around and they are getting inspired 
through online measures. Mr. Chairman, those are some questions 
I hope the Europeans are asking themselves. We are not going to 
solve it for them, but I appreciate the information.
    Mr. Poe. I thank the gentleman. The Chair recognizes the 
gentleman from New York, Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. And I want to agree 
this has been a very interesting hearing and something that we 
have got to really dig into. Let me just try to go a little bit 
further, I guess, on what Mr. Duncan was talking about, because 
I hear a lot of folks now talking about the way to prevent 
terrorist attacks is by banning immigrants and refugees and 
individuals from coming back into, or going into various 
different countries.
    So I guess my first question is, do you think by banning 
immigrants--and I think you said, Ms. Cragin, it was only 3 
percent of individuals who were not coming from post, from the 
war areas, those who are returning from battle, you know, over 
there, but the actual refugees and immigrants who we can--do 
you think by banning all refugees and immigrants will that cut 
down on terrorism in these various areas in Europe or anyplace 
in the world for that matter because terrorism is all over the 
place now?
    Ms. Cragin. The way that you successfully put together a 
counterterrorism strategy is you have layers and lots of 
different security measures throughout. So my data suggests 
that of external operations, that is, attacks conducted by ISIS 
outside of its provinces, its 25 provinces, 3 percent included 
somebody who had come through the refugee system. So that is 
not zero, it is something.
    But then you start talking about where do you put your 
resources because nobody can devote just everything to this 
problem. Do you devote it to border security measures? Do you 
devote it to intelligence operations? Do you devote it to 
military operations? That is sort of what we are talking about.
    As a counterterrorism professional, I prefer to see more 
devoted out toward intelligence, law enforcement 
investigations, and military operations than border security. 
That doesn't necessarily mean you don't do border security. Now 
I am just talking about relative resources and what you devote 
to what type of operation.
    Mr. Meeks. So let me ask Ms. Holmer, because one of the 
things that I have also seen that we could be taking our eye 
off the ball, for example, in the western Balkans where we talk 
about where there is a space of very high unemployment, 
disenchantment, and religious extremism present and I think 
that can help present a dangerous recipe. So what can be done 
in this region to help secure pathways or their path toward 
NATO and EU while minimizing the risk of terror in those 
particular areas?
    Ms. Holmer. I know one issue that is important to the 
Kosovo Government is that they are not members of Interpol. And 
I think that having the Balkan countries fully integrated into 
all of the cooperative mechanisms that are in place in Europe 
would be significant, and also acknowledging that the threat is 
not just from returnees but from people who are already in the 
country who haven't left who may be inspired to engage in acts 
of violence. And that speaks to not just bolstering law 
enforcement intelligence operations, but also to having a 
commensurate resource commitment to prevention.
    Mr. Meeks. Now let me ask this question. As I talk to some 
of my, well, some are friends, some are constituents, et cetera 
here in the United States, those who happen to be Muslim also, 
they do say the words that we utilize in the United States and 
in Europe and others are important. Some would help, you know, 
words are important, some helps to recruit, will help 
recruiters recruit individuals.
    Do you think that words matter and how we entitle or how we 
title, I should say, for example, I know my friend from 
California says we are free to now say radical Islamic 
terrorist. Or I heard Mr. Simcox, he indicated, he used the 
word, he used the phrase, Islamic terrorist as opposed to 
Islamic terror. Does that make a difference or is that just 
semantics for us or et cetera? Does words matter in this regard 
when we are fighting terror? Ms. Holmer?
    Ms. Holmer. I think all political violence is an affront to 
democratic values regardless of the ideology that underpins it. 
And while it helps us understand the motives, helps us to 
understand the recruitment dynamics, helps us understand and 
counter those ideologies to know exactly what they are, I am 
not sure there is a very big difference, ultimately, between 
the types of violence that were inspired by Marxist ideologies 
in the 1980s or the separatist groups during that period as 
well from what we see today.
    So while I think it is important as part of our 
understanding and it is an important piece of a layered 
counterterrorism strategy, it is only one piece of the puzzle 
and overemphasizing it is going to keep us away from the other 
pieces.
    Mr. Meeks. Out of time.
    Mr. Poe. The Chair recognizes the gentleman from Virginia, 
Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman. I am curious because 
we have spent a lot of time on the entity that I call Daesh or 
ISIS, some people call it ISIL. And my understanding of the 
term Levant in its historic context would be essentially the 
entire eastern Mediterranean region extending into what some 
would argue would be Iraq to include North African nations, 
currently Libya, Egypt, as well as in fact the island of Cyprus 
and Greece, et cetera.
    You spoke--Dr. Cragin, is that historically, roughly, 
correct as to what the Levant would mean?
    Ms. Cragin. Yeah. Normally, North Africa is the Maghreb, so 
probably up through Egypt, but you wouldn't then go into Libya 
and to Algeria. That would be considered the Levant.
    Mr. Garrett. So, and I am not going to be rude, but----
    Ms. Cragin. Lebanon, Jordan, yes.
    Mr. Garrett. Sure, Syria, Lebanon, Iraq, Turkey, I mean in 
the broadest historical sense. And so if you were to refer to 
ISIL, you would actually be giving a larger geographic 
footprint to the entity that is ISIS as opposed to ISIS which 
would be Islamic State in Iraq and Syria; am I correct?
    Ms. Cragin. I think this is a semantic thing of do you use 
the word that they used to call themselves, do you assign 
something to them? This is the Daesh, this is the ISIS versus 
ISIL.
    Mr. Garrett. Sure. But having spent a little bit of time 
affiliating with both law enforcement and warfare, it strikes 
me that unless you wish to bolster your enemy, unless you wish 
to strengthen your enemy and the view of your enemy themselves 
in the world, you minimize. You might refer to them say, for 
example, as the JV team, right? I mean that would be, but 
normally, traditionally, you don't want to build your enemy up, 
right? I guess what I am driving at is that the Levant is 
larger than Iraq and Syria and why someone would choose to call 
them ISIL, which would give them greater credibility, is beyond 
me and yet that has been done.
    I want to speak briefly to FISA. A recent report in the 
case is that up to 5 percent of FISA Court applications and 
upstream information gathering during the last--is the previous 
administration, was actually used against American citizens. 
And Section 702 of the Code allows for us to use FISA because 
it orders that American citizens be masked, wherein those 
citizens' identities might have accidentally been associated 
with a foreign intelligence target, because why, because we 
don't know who has called whom. It could be a wrong number or 
it could be a call for entirely unrelated methods or reasons.
    If in fact this is the case and that shakes the confidence 
of people like my colleague from California and myself in FISA, 
does that also run the parallel risk of undermining our 
intelligence gathering operations and stymieing our abilities 
to stop attacks before they happen, Mr. Simcox?
    Mr. Simcox. I am going to have to--I just don't know enough 
about the FISA Section 702 to be able to answer that 
satisfactorily.
    Mr. Garrett. Mr. Hughes, do you have any opinion on that?
    Mr. Hughes. No, I would agree with Robin on that.
    Mr. Garrett. Okay. I would submit for the record, Mr. 
Chairman, that if we weaponize Foreign Intelligence 
Surveillance Act processes that have existed in this country 
since 1979, so for 38 years, against Americans, that people 
like myself and others who are reasonable and appreciate the 
Bill of Rights and specifically the Fourth Amendment thereto, 
might then rail against the use of those particular 
intelligence gathering techniques.
    And if we rail against the use of those particular 
intelligence gathering techniques, I would argue that we will 
gather less intelligence and therefore be less effective in 
stymieing or stopping the next attack. And so I would submit 
that perhaps the blood of Americans who are victimized in an 
attack that is missed because a prior administration or 
individual determined that it was worthwhile and reasonable to 
completely subvert the intent of the Foreign Intelligence 
Surveillance Act, and thus Congress acted appropriately to 
defend the legitimate privacy expectations of American 
citizens, that entity or actor might have blood on their hands.
    I am going to switch subjects briefly to the Muslim 
Brotherhood. I have sourced from probably four or five 
different sources the Muslim Brotherhood motto. I know there is 
a bill that would designate the Muslim Brotherhood as a 
terrorist organization before this Congress. I understand the 
political sensitivity as the Muslim Brotherhood engages in 
things certainly not directly related to terror.
    But I would ask you, if the Muslim Brotherhood motto is 
roughly translated into Allah is our objective, the Prophet is 
our leader, the Koran is our law, Jihad is our way, and dying 
in the name of Allah is our goal, couldn't a reasonable person 
think that was an imploration to commit extremist acts, Mr. 
Simcox?
    Mr. Simcox. Yeah. I think that the question with the bill 
is, I think one of the main concerns is whether you are going 
to be able to legally designate the Brotherhood as a terrorist 
entity and whether that will achieve what we want to achieve. 
By that----
    Mr. Garrett. Are there subordinate entities to the 
Brotherhood that might be able to be singled out that would be 
more accurate? Mr. Hughes?
    Mr. Simcox. I think that would----
    Mr. Garrett. Sorry. He was nodding so he got the call.
    Mr. Hughes. Yeah, there are a number of Muslim Brotherhood-
linked organizations I think you could take a hard look at in 
terms of----
    Mr. Garrett. Mr. Chairman, I am out of time. I would ask 
you, Mr. Hughes and Mr. Simcox--I apologize. If you all would 
please contact my office with the names of subordinate entities 
that might be more appropriately designated, thank you.
    Mr. Poe. And I would ask the gentlemen to provide that list 
to the Chair. And the Chair recognizes the gentlelady from 
California, Ms. Torres.
    Mrs. Torres. Thank you, Mr. Chairman, and thank you to our 
witnesses that are here today. I am a new member of this 
committee. Prior to coming here I was on Homeland Security. I 
was a local mayor. In the state legislature in California I 
spent a lot of time studying and dealing with state prison 
issues. In my district I have a men's prison, a women's prison, 
and a juvenile detention which has now been closed.
    So going back to a question that was asked by Ranking 
Member Keating regarding our prison system versus the European 
prison system, if incarcerated people in Europe are spending 
less time in prison than incarcerated people here in the U.S., 
wouldn't that be less time that they have inside, you know, a 
prison system to recruit?
    Mr. Simcox. Well, I think part of the problem is the people 
who don't go into prison as radicals but come out with it that 
way. And so this is especially relevant when you think of ISIS' 
connections to the criminal nexus and their ability to recruit 
from criminal fraternities, because you have certainly had, you 
have very influential people within French prisons, let's take 
an example, who have a very long track record now of being able 
to connect to the people that have gone in for somewhat petty 
crimes that are going to be leading to release in 6 months to 2 
years.
    Mrs. Torres. So, and U.S. prisons are, you know, 
institutions. We try to separate the Mexican mafia, for 
example, with other gangs. The Bloods and the Crips, we try not 
to hold them within the same area. Is this different than what 
is happening in Europe?
    Mr. Simcox. Well, in Europe they have experimented with 
different approaches, but I think that it is, there has 
definitely been a problem when you have had key radicalizers in 
among the general prison population increasing radicalization. 
The problem is you get some groups who are concerned if you 
stop putting, for example, terrorist-only wings, then there are 
complaints that you are creating a British Guantanamo Bay or 
something like that. I don't find those to be persuasive 
arguments, but that is the sort of things you hear on the other 
side.
    Mrs. Torres. So let's talk a little bit about community 
policing. Having come from also that environment, spent a lot 
of time representing, you know, a city that has high crime and 
numerous gangs and very at-risk youth, there is a lot to be 
said about at-risk youth and the lack of services and the lack 
of education and opportunities.
    Here in the U.S., I think at least the Muslim community 
within my district is very much integrated. They are very much 
a part of the quilt that, you know, is the makeup of our very 
diverse and culturally diverse community and they are seen as a 
positive influence in our community, not as a negative 
influence. They tend to want to work and be a part of the 
solution with law enforcement and with FBI officials.
    So in the case of San Bernardino, I mean that really comes 
out. And I have lost constituents. I used to represent the city 
of San Bernardino as a state senator. And it really troubles me 
that there weren't real signals out there from a young mother 
with a young baby and a young father. What could we do? What is 
a lesson there that we could learn certainly without having to 
racially profile someone just because of the way they look?
    Mr. Hughes. Maybe I will jump in. George has done some 
really good work on the RESOLVE Network and looked at these 
kind of community-oriented policing things, but I would say in 
the U.S. context community engagement is one step. So I used to 
do----
    Mr. Poe. Is your mic on?
    Mr. Hughes. Yes. I used to----
    Mr. Poe. Talk louder then.
    Mr. Hughes. Sorry, sir. I used to do community engagement 
mostly in Mr. Keating's district, which was you go to a mosque 
with 300 people in a room and you talk about terrorism 
radicalization.
    Mrs. Torres. But you don't talk down at them.
    Mr. Hughes. No.
    Mrs. Torres. You let them talk to you.
    Mr. Hughes. No. Yeah, you have to. And it has to not be 
numbers. It has to be human stories, right. How do you reach 
the kid before they cross the line? When you look at the U.S. 
cases, you have what we call a bystander effect in the majority 
of them where individuals see something concerning but don't 
know what to do with it and don't have the tools to deal with 
it.
    And we haven't provided as the U.S. Government or 
communities, really, alternatives to prosecution, intervention 
programs, so that if you have a case like Enrique Marquez who 
was on the law enforcement radar for a number of years but 
don't have enough to arrest him, we can't veer him off to 
somewhere else. Our European partners have developed these kind 
of one-on-one interventions, nascent in some places, but at 
least they are putting resources behind it.
    Mrs. Torres. Thank you, Mr. Chairman. My time is up.
    Mr. Poe. The Chair recognizes the gentlelady from Illinois, 
Ms. Kelly.
    Ms. Kelly. Thank you, Mr. Chairman, and thanks to you and 
the rankings for holding this hearing today on terrorism in 
Europe.
    Given the recent terrorist attacks in Europe, especially 
the three attacks that have taken place in the United Kingdom 
since March, understanding and combating terrorism is 
increasingly important to both the United States and our allies 
across the Atlantic. Over 70 percent of the perpetrators of 
terrorism in Europe are citizens of the countries they 
attacked. This is an indication that radicalization is taking 
place within countries in Europe and could also happen within 
the United States.
    Richard A. Stengel, the former Under Secretary of State for 
Public Diplomacy, testified before Congress that other 
countries can better deal with terrorist information operations 
than the United States. So for all of you, is the current 
Global Engagement Center being run by the Department of State 
the best messenger to counter extremism, and also how should we 
be coordinating our information operations to counter extremist 
propaganda to help protect the homeland and help our allies? 
And whoever feels they can answer.
    Mr. Hughes. Yeah, I will jump in on the Global Engagement 
Center or the GEC. We have seen a number of different 
iterations there. I tend to be a believer that the U.S. 
Government shouldn't cede the space, meaning that I am okay 
with the stamp of the U.S. Government on communications as long 
as you also have the black, the gray, and the white still going 
on at the same time.
    And I think we are seeing an evolution at the GEC of away 
from this broad-based, here is a 30-second video on YouTube 
that won't get your target audience to more of how do we move 
folks that we have identified in the online space to offline 
intervention, boards, or groups, NGOs in Europe and other 
places, where we can start to try to bring these people back in 
the fold?
    I would hope the Global Engagement Center moves away from 
large scale programming toward more targeted programming and 
then you are able to then measure effectively. If you can go 
back to them and say it is working and Congress I need more 
money or you can say it is not working, let's shift gears.
    Mr. Simcox. On the Global Engagement Center I think you 
need to have a, I think it is important to have an approach 
that is flexible, the changes, if necessary, region by region. 
It is not going to be a cookie-cutter strategy that you can 
just implement across any area or concern by. I tend to agree 
with Seamus. I don't think the U.S. Government should cede this 
space. I know that people would say somehow it is an imperfect 
messenger, but I think while that may be true what is perfect 
about this area we are working in? So I hope the U.S. remains 
engaged.
    Ms. Kelly. Okay.
    Ms. Holmer. I would just add that the success of any 
counter messaging program is that the message itself is local, 
locally originated and locally given. So the success of any 
sort of effort in that is rooted in having partnership in the 
countries that are the recipients of those messages.
    Ms. Kelly. And do you feel in light of changes that have 
gone on in the United States that the countries feel confident 
in us, like our European allies?
    Ms. Holmer. I think that depends country to country.
    Mr. Simcox. I still think that there is--whenever I speak 
to European governments on this I don't think what you should 
overestimate in the U.S. the distrust that is coming from 
Europe. People in Europe still want to work with the U.S. on 
these issues. There is a great level of, I mean, trust that 
still exists and alliances that have been built up over decades 
that aren't going to, they aren't dependent on one President or 
one party.
    And so all the conversations I have had with European 
governments throughout various levels have been people saying 
like how do we increase contacts, how do we carry on this work 
in these relationships, because they know that the U.S. is 
important on so many levels--the diplomatic, intelligence, 
military--all the things that go into forging effective 
counterterrorism policy.
    Ms. Kelly. That is good to hear.
    Mr. Chair, I yield back.
    Mr. Poe. I thank the gentlelady and I will recognize the 
gentleman from California, Mr. Sherman.
    Mr. Sherman. We in the United States per capita faced far 
less Islamic extremism from plots hatched on our own soil which 
of course excludes 9/11. What is it about what we are doing 
that is better or worse in terms of assimilating our Muslim 
American communities and convincing them not to engage in the 
behavior that we see from Brussels to Paris to London? Mr. 
Simcox?
    Mr. Simcox. Well, there are host of things. I would offer 
one quite simple, and I hope it doesn't seem trite, example. 
The word you used, assimilation, is not a word that is ever 
used in Europe. It is not----
    Mr. Sherman. Is it thought to be politically incorrect?
    Mr. Simcox. Yeah, I think people just don't see, people 
talk about integration perhaps, but then there is also a lot of 
debate about, well, should we really expect people to 
integrate? I mean this is how you allow parallel societies 
essentially to develop in the way that unfortunately we have in 
Europe. So I think there is an incredible reluctance, still, to 
even talk about--I mean like I say the word assimilation just 
isn't used. And I think that is an area where Europe certainly 
needs to change.
    There are a whole host of other issues relating to the type 
of immigration that has taken place whether, for example, the 
U.S. took in people from more affluent backgrounds perhaps as 
opposed to the ways of migration that came into the U.K. or 
Germany perhaps. I think there is a whole host of things around 
that that you could debate and go back and forth on. But I do 
think the assimilation v. integration on is a kind of an 
interesting component to this.
    Mr. Sherman. And I would point out that we as a country 
have a much longer period of assimilating people while they 
still retain their religious traditions. And there is a 
tendency to think that if you are doing better than someone 
else that everything you are doing is right and everything they 
are doing is wrong. What can we learn? What is Europe doing 
right that would make sense to do here in the United States? 
Ms. Holmer, or anyone else who wants to answer.
    Ms. Holmer. Sure. Europe is spending a lot more resources 
and time on the prevention agenda. They have a lot more 
programs that are about diversion, that are about interventions 
before people at early stages of radicalization. This is 
something that the EU has invested heavily in. This is 
something that happens on both the municipal and the national 
government level in terms of funding and support and they have 
a lot more programs than we do.
    Mr. Sherman. And yet they have the bigger problem.
    Dr. Cragin?
    Ms. Cragin. If I could just add, not to pat ourselves on 
the back too much or to get too critical of Europe, their 
networks, and this was mentioned earlier, exist all the way 
back to the conflict in Bosnia. So these networks of 
recruitment and radicalization have been around a lot longer 
than we have had in the United States. And so part of the 
explanation for why there is more----
    Mr. Sherman. So let me get this straight. NATO, a 
predominantly Christian or Christian-heritage organization, 
went to war with a Christian country, Serbia, to defend the 
people of Bosnia, then of Kosovo, the two of the three Muslim 
majority states in Europe today, and instead of people saying, 
my god, here NATO is living up to its values and defending 
people regardless of their religion, instead, somehow the 
narrative was now it is time to blow things up in the countries 
that saved the people of Kosovo and Bosnia, the Muslim people 
of Bosnia and Kosovo.
    Ms. Cragin. So let me explain it on two levels. You are 
talking about motivations, and I think there is still part of 
that that exists that NATO and the United States intervened too 
late, so there is that. But I am actually talking about----
    Mr. Sherman. Wait a minute. The Muslim majority countries 
intervened not at all and saved almost no one, but those who 
saved people didn't do a good enough job. Continue.
    Ms. Cragin. Right. No, I agree. But what I want to actually 
point out is the logistics network that exists and the 
financing network that exists that then funneled fighters and 
money into that conflict then reversed, and that network is 
what they are trying to root out now.
    Mr. Sherman. Now the countries of Kosovo and Bosnia and the 
Muslim majority area of Bosnia-Herzegovina exist because of 
NATO. Have their leaders and imams been helpful in pushing back 
against Islamic extremism given the fact that we saved them?
    Ms. Cragin. So I will just say--I know you have done work 
on this. I will just say one thing that I think is really 
interesting about the Dayton Accords which is that they 
actually required all of the foreign fighters who went, and 
there were 3,000 who went to fight in Bosnia, to leave. And 
this is something that the countries have been working hard to 
make sure that they reinforce more recently than they did 
earlier, but I think that it is a good precedent and they are 
trying with limited resources.
    Mr. Poe. The gentleman's time has expired. The Chair 
recognizes itself for its questions. Thank you for being here. 
There has been some discussion about American intelligence 
sources spying on Americans. I have a great concern about that 
under the FISA Court, secret courts issuing secret warrants on 
secret individuals.
    I do believe we can have security and safety and we can 
have civil liberties in the United States. The abuse by the 
intelligence services of specifically 702 of the Foreign 
Intelligence Surveillance Act must end or Congress must take 
immediate actions to stop FISA in its entirety. They are 
abusing the law as it already is, in my opinion, and that is 
our obligation because we are unique among nations. We have 
actually the Fourth Amendment to protect people and Americans 
in the United States.
    Something that hasn't been talked about very much is the 
use of social media. We have foreign terrorists using American 
companies to recruit, to raise money, to spread propaganda, and 
to teach other terrorists how to make bombs. The Europeans are 
talking about trying to rein in social media. We have a 
legislation that requires our Government to tell us what the 
plan is on social media. To be very clear, the Supreme Court 
has said that the terrorists do not have a constitutional right 
to use social media. It is not a free speech platform that they 
are entitled to use. That is not an issue. I am a big First 
Amendment guy.
    But what are we doing to rein in our social media companies 
to stop recruitment, raising money, propaganda, and the 
building of bombs? Anybody want to talk about that? The 
Europeans are talking about fining these businesses, social 
media companies. What are we doing?
    Mr. Hughes. Sure, if I may jump in. So if given the option 
social media companies would want to be libertarian in their 
views, right, and take down no content. Because of pushback 
they have gotten from Capitol Hill, from the public in saying 
why are you letting your platforms be used by terrorists----
    Mr. Poe. But they don't have a constitutional right to do 
that. It is no free speech issue.
    Mr. Hughes. No. And they could enforce the terms of service 
more rigorously. In fact, we have seen that happen at least 
recently on Twitter. If you had asked me 2 years ago what the 
platform of choice would be I would tell you Twitter. My 
concern now is that it is largely, the ISIS recruits are 
largely concentrated on Telegram which----
    Mr. Poe. A German company.
    Mr. Hughes. German, yeah. And so it allows for ident 
encryption, and so what you are seeing is less of the fence 
sitters. So you are less likely to get a kid from the Midwest 
who is curious about ISIS. You are more likely to get the true 
believers who are looking for connectors and guys in Raqqa, the 
legion in there saying here is the bomb you should use.
    Mr. Poe. So what can we do? Cut to the chase, Mr. Hughes.
    Mr. Hughes. Cut to the chase, no problem. So there is a 
couple ways to do it. It is one, I think, more pressure on 
Telegram to the extent that the larger----
    Mr. Poe. Should they be held criminally liable for that?
    Mr. Hughes. I think you could argue some level of civil 
liability may be in play here. I think the larger question we 
are talking----
    Mr. Poe. Our social media companies have brought down all 
of the child pornography sites with absolutely no problem about 
liberty, and that works. Why not use the same protocol to bring 
down terrorist sites? Why is that not occurring, do you know?
    Mr. Hughes. Yeah. I think it is occurring more rapidly in 
Facebook and less so in other places. And so I would encourage 
social media companies to do what they are doing now which is 
using AI and hashtagging technologies to proactively take down 
content.
    Mr. Poe. Are any of you in favor of criminal or civil 
penalties against social media companies that don't bring down 
terrorist sites, any of you? I guess that is a no. We shall see 
where we go with that.
    I have a question for all of you. How many ISIS terrorists 
are there in the world? Does anybody know an estimate? You all 
are the experts, you have got to give me a number here. Does 
anybody know how many? Nobody wants to say. Well, I think we 
ought to at least know how many of the enemy there are if we 
are going to be able to defeat them.
    What is the definition of a terrorist? Give me a working 
definition of a terrorist as opposed to some outlaw, criminal, 
whatever. What is a terrorist?
    Ms. Holmer, the FBI.
    Ms. Holmer. A terrorist is someone who commits an act of 
violence or violent crime justified by an extreme radical 
political or religious or social ideology.
    Mr. Poe. And Mr. Hughes, you were not very encouraging. You 
said the problem is going to get worse on terrorist activity. I 
believe it was you or Mr. Simcox, one of you said it is going 
to get worse in the future. We are not going to have a grip on 
this. Why is it going to get worse? And that will be my last 
question.
    Mr. Simcox. I think it is going to get worse because in 
terms of the relation and the subject matter today, I think the 
problems in Europe are stark, severe, and only getting worse. I 
don't see integration improving. I don't see security improving 
and that obviously has an impact on the U.S. I think there are 
a number of trends in Europe, which look terrifying, and that 
has an impact here.
    Mr. Poe. All right. I want to thank all of you for being 
here. I will allow the ranking, or the gentleman, the chairman 
of the European Subcommittee to make a comment, a final 
statement.
    Mr. Rohrabacher. A short closing statement, but let me just 
note one of the things let me just say, with all due respect, 
saying that only 3 percent of the terrorists come from the 
migrant camps or have migrated in totally distorts the view of 
what we are really talking about, because I imagine that 97 
percent then come from migrant families that came and migrated 
into the Western European societies maybe 20 years ago or 30 
years ago or even 40 years ago.
    I mean this isn't like you have a bunch of basically, what 
we used to have in Northern Ireland, where you have a bunch of 
Catholics coming out who are basically part of the Irish 
society. This is basically the 3 percent figure you say, and 
every time you said it I think it was deceptive, and I don't 
mean you intentionally were deceiving people, but it was 
deceiving to us as to what the real threat is. If you have a 
bunch of migrants coming into your country and you are saying, 
well, only 3 percent of them will actually become terrorists, 
fine.
    But if 90 percent of the terrorists come from their 
children or their children's children, yeah, you are putting 
yourself on a line to have a lot more terrorism in the future. 
And that is why maybe when they say terrorism is going to be an 
expanding problem that is what we mean. So I don't feel 
comfortable saying, oh, well, only 3 percent of the people who 
are immigrants into my community are going to be susceptible to 
terrorism. But if their children are, 97 percent of the 
children are or whatever it is, that is a problem.
    So with that said, again we are a country of freedom and I 
have voted against--with Your Honor, I voted with you to make 
sure we don't step on people, people who are here legally. I 
think that is very--I am in favor of legal immigration whether 
there is Muslims or other people. But the fact is, whoever 
comes here we have to make sure that we understand the 
potential if they are coming here from a country that has a lot 
of terrorism or upheaval and radical Islamic culture then we 
have to be careful with that.
    We have to make sure the people--in San Bernardino, Mr. 
Chairman, in San Bernardino we had a young man who, I guess he 
was born here of Islamic parents. He went out with this wife 
and they slaughtered social service workers. They just went out 
and slaughtered them. No, we should have taken more care there. 
We should have made sure that someone who was susceptible like 
that got a lot closer attention than what he obviously got.
    And it is a challenge for all of us, freedom versus 
security, like we were saying, in all of our countries. So I 
don't think we can side totally with freedom, but I don't think 
we can side totally with security either. So thank you for 
helping us make up our minds to where that is, but I think the 
3 percent number didn't help us. Okay, thank you very much.
    Mr. Poe. The Chair will recognize for the final statement, 
the ranking member, Mr. Keating from Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. I just want to thank 
the witnesses. We deal with this terrible epidemic that we have 
that is not just domestic but worldwide in so many different 
ways.
    Today we had a chance to focus in part on one of the things 
that really hasn't been fully utilized as a tool against this 
terrorism and that is the idea of prevention. Sometimes the 
difficulty with prevention is you can't quantify it in 
statistics, because if you prevented it you may never know what 
indeed was responsible for stopping it. But just as the chair 
started the hearing saying, for instance, in 1,000--I am 
paraphrasing. In 1,000 attempts, all the terrorists have to do 
is be successful once.
    In prevention in some of the techniques we are learning 
from Europe and they are learning from us, all we have to do is 
be successful one of those times to stop one of those terrible 
terrorist acts. So in programs that Mr. Hughes was involved in 
my region and other areas, they are successful but they need 
resources and they need commitment and they also need an 
understanding that law enforcement needs help outside of the 
traditional system to deal with preventing this. And thank you 
for a glimpse of that and some ideas today. I yield back.
    Mr. Poe. I thank the gentleman. I thank the witnesses for 
being here. You are advised now that you may have some 
questions presented to you by members of the subcommittee that 
ran out of time. Please respond promptly to those questions and 
send us answers.
    And I thank the members for being here as well. This has 
been a very important and enlightening hearing. Thank you very 
much for your expertise. The subcommittees are adjourned.
    [Whereupon, at 3:45 p.m., the subcommittees were 
adjourned.]

                                     
                                  

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
